TN

C@OCKLE

i '-Mail Address:
Legal Briefs E-Mai :
& Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

www.cocklelegalbriefs.com

Nos. 19-431 & 19-454

LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME,
Petitioner,
v.
COMMONWEALTH OF PENNSYLVANIA, ET AL.,
Respondents.

DONALD J. TRUMP, PRESIDENT OF
THE UNITED STATES, ET AL.,
Petitioners,
Vv.
COMMONWEALTH OF PENNSYLVANIA, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
CENTER FOR HEALTH LAW AND POLICY INNOVATION OF HARVARD LAW SCHOOL,
ET AL. IN SUPPORT OF RESPONDENTS in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 7099 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 7th day of April, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL BOTARY-State of Mebraska
i RENEE J. GOSS . tos? Queda &. Ghkh

Notary Public Affiant

My Comm. Exp. September &, 2028

 

 
